                UNITED STATES DEPARTMENT OF EDUCATION
                     OFFICE OF INSPECTOR GENERAL
                           61 FORSYTH STREET, ROOM 18T71
                               ATLANTA, GEORGIA 30303
Phone (404) 562-6470                                                            Fax (404) 562-6509



                                       January 12, 2006

                                                                           Control Number
                                                                           ED-OIG/A04F0011


Mrs. Kathy Cox
State Superintendent of Schools
Georgia Department of Education
2066 Twin Towers East
Atlanta, GA 30334


Dear Mrs. Kathy Cox:

This Final Audit Report, entitled Audit of the Georgia Department of Education’s Migrant
Education Program, presents the results of our audit. The objectives of our audit were to (1)
review and determine the adequacy of the Georgia Department of Education’s (GA DOE) re-
investigation of the eligibility of migrant students served by the Two Rivers Migrant Education
Agency (MEA); (2) determine whether the Migrant Education Program (MEP) funds allocated to
the Marion County Board of Education for Two Rivers MEA were expended appropriately; and
(3) determine the extent of GA DOE’s monitoring of its MEP sub-grantees. Our review covered
MEP operations and the Two Rivers re-investigation from September 1, 2003 through August
30, 2005.




                                    BACKGROUND

The Migrant Education Program (MEP) is authorized under Part C of Title I of the Elementary
and Secondary Education Act of 1965, as amended. Federal regulations define an MEP eligible
migratory child as a child who is, or whose parent, spouse, or guardian is, a migratory
agricultural worker, including a migratory dairy worker, or a migratory fisher, and who, in the
preceding 36 months, has moved from one school district to another, to obtain temporary or
seasonal employment in agricultural or fishing work. The goal of the MEP is to ensure that all
migrant students reach challenging academic standards that all children are expected to meet, and
to prepare them for successful transition to postsecondary education or employment. Federal
Final Report
ED-OIG/A04F0011                                                                 Page 2 of 21
MEP funds are allocated by formula to state education agencies, based on each state's per pupil
expenditure for education and counts of eligible migratory children, aged 3 through 21, residing
within the state.

Georgia’s (GA) MEP authorized funding for award years 2002-2003 and 2003-2004 was
$8,873,820 and $8,928,859 respectively. GA DOE reported a total of 23,765 students were
eligible to participate in the Georgia MEP during award year 2002-2003, and 25,640 students in
2003-2004. Only a minimal level of MEP funds was retained at the GA DOE for state
administration of the program (approximately one percent). The remainder of the funds was
allocated to four fiscal agents, located throughout the state of Georgia. Three of the fiscal agents
were Regional Education Service Agencies (RESA), and one fiscal agent is a County Board of
Education. Each of the fiscal agents operated a Migrant Education Agency (MEA) that was
responsible for carrying out MEP-funded services across multiple districts in its region. A
breakdown of the fiscal agents, MEAs, and number of school districts served is presented in the
chart below.

                                          Migrant Education          Number of School Districts
             Fiscal Agent                       Agency                          Served
First District RESA                     Live Oak                    38 in Eastern GA
Coastal Plains RESA                     Southern Pine               22 in Southern GA
Marion County Board of Education        Two Rivers                  46 in Southwestern GA
Pioneer RESA                            Piedmont                    74 in Northern GA

In April 2003, the U.S. Department of Education’s (ED) Office of Migrant Education (OME)
directed GA DOE to conduct an investigation of the Two Rivers MEA to determine whether it
was recruiting/serving ineligible students. In response, GA DOE reported in June 2003 that there
was no evidence to indicate that the Two Rivers MEA was recruiting/serving ineligible students.
OME reviewed GA DOE’s report and had serious concerns about the thoroughness and quality
of the investigation and in January 2004 directed the GA DOE to re-investigate. In January
2005, GA DOE provided a brief summary of its re-investigation. OME found this response
incomplete and uninformative and requested more information that was not provided by the GA
DOE. In addition, in July 2004 OME requested all states to re-interview a state-wide sample of
participants in the MEP to determine the accuracy of the state-wide 2003-2004 child counts. In
response to the state-wide re-interviewing activity, GA DOE reported, in June 2005, a statewide
ineligibility rate of 35 percent (and a 36 percent ineligibility rate in Two Rivers), based solely on
face-to-face re-interviews conducted with those families from the random sample that could be
located. We also noted that OME’s most recent program review report on the Georgia Migrant
Education Program, performed in 2004, identified areas of noncompliance and required
corrective action. Our review focused on GA DOE’s re-investigation of the Two Rivers MEA.
Final Report
ED-OIG/A04F0011                                                                           Page 3 of 21


                                         AUDIT RESULTS

We found that policies, procedures, and internal controls over Two Rivers Migrant Education
Agency’s (MEA) Migrant Education Program (MEP) expenditure process were adequate and it
expended its MEP funds appropriately. However, we identified problems with GA DOE’s 1) re-
investigation of Two Rivers MEA student eligibility, and 2) administration and oversight of the
MEP.

In its comments to the draft report, GA DOE concurred with all findings and recommendations
directed at the state. GA DOE did not address recommendation 1.5 because it is directed to the
Assistant Secretary for Elementary and Secondary Education and is therefore, beyond the control
of GA DOE officials. In addition, GA DOE stated that it has already taken steps to implement
the recommendations set forth in the report. The full text of auditee comments is included as an
Attachment to the report.

Finding No. 1 – GA DOEs Re-investigation of Two Rivers MEA was
                Inadequate and its Report Sent to OME was Inaccurate
GA DOE did not adequately re-investigate the eligibility of migrant students served by the Two
Rivers MEA. We found that GA DOE based its conclusions on an insufficient number of
interviews; inadequate interview questions and/or procedures; and insufficient and/or inadequate
notes documenting the interviews. We also found that the re-investigation methodology –
interviews – produced inadequate information for GA DOE to base its conclusion that fraud was
not a factor in the discrepancies in reporting student eligibility. In addition, GA DOE’s report to
OME contained inaccurate information. As a result, GA DOE and OME are still unaware of the
full extent or reason for Two Rivers MEA enrolling and serving ineligible students; and OME
does not have accurate and reliable information to use as a basis for assessing eligibility issues
and determining what actions to take.

Insufficient Number of Interviews
MEP is a state-operated and state administered program, and it is the state’s responsibility to
ensure that MEP funds are used to identify, recruit, and provide services only to eligible migrant
children. The state delegates its responsibility to local operating agencies used to assist the state
in carrying out the MEP. Pursuant to 34 C.F.R. § 80.40(a), “Grantees are responsible for
managing the day-to-day operations of grant and sub-grant supported activities. Grantees must
monitor grant and sub-grant supported activities to assure compliance with applicable Federal
requirements and that performance goals are being achieved.”

Based on the criteria in § 80.40(a), OME instructed GA DOE to perform a re-investigation1 of
Two Rivers MEA (one of GA DOE’s MEP sub-grantees), in order to determine whether the Two
Rivers MEA deliberately recruited/served ineligible students in the MEP. OME wrote several
letters to GA DOE providing specific instructions on the approach to be used for the re-
1
 The re-investigation was separate from OME’s request for statewide re-interviews to determine the accuracy of the
2003-2004 child counts.
Final Report
ED-OIG/A04F0011                                                                        Page 4 of 21
investigation. Our review showed that GA DOE did not follow OME’s instructions.
Specifically, OME--

•   Provided sampling instructions, which specified that the number of re-interviews of migrant
    families should be large enough (300-350 families) to generalize a conclusion as to whether
    Two Rivers MEA was enrolling and serving ineligible migrant students. GA DOE agreed
    with the instructions in writing, however, it did not follow the instructions;

•   Instructed GA DOE to broaden the investigation and determine the full extent of the
    problem, if GA DOE’s re-interviews suggested a problem. GA DOE did not express whether
    or not it agreed with OME’s instruction. GA DOE did not broaden the sample size and did
    not implement other/alternate procedures to address the identified problem; and

•   Instructed GA DOE to determine whether fraud was involved in the recruitment of ineligible
    students. GA DOE maintains that it followed this instruction, but did not document the
    procedures or the results.

As part of the 2004 re-investigation, GA DOE attempted to locate and interview 164 families,
from a universe of 3,8932 students eligible to participate in the MEP through the Two Rivers
MEA for the 2003-2004 program year. GA DOE was only able to locate and interview 50 of
those families, which included 101 children.

The families GA DOE interviewed represented only 2.6 percent of the universe of Two Rivers
MEA migrant students (101/3,893); and half of the 50 families it interviewed were ineligible (54
ineligible children). A sample of interviews consisting of only 2.6 percent of the universe was
insufficient for GA DOE to project the amount of program ineligibility. In addition, GA DOE
did not take any further steps to determine the full extent of ineligibility, or the reason that its re-
investigation found ineligible children in the program as instructed in OME’s letters. Therefore
GA DOE should have known that the 2003-2004 migrant child counts it had submitted were
incorrect and that, unless problems were identified and corrected, errors in those child counts
might carry over into future years as well.

Inadequate Interview Questions and/or Procedures
We reviewed GA DOE’s interview process and the notes from the May 2004 and August 2004
interviews of the migrant families for its re-investigation of the Two Rivers MEA. We found
that the interview questions and procedures used for the August 2004 interviews were inadequate
because the interviewers asked questions only about information relating to the last time the
families had moved. In addition, the interviewers only asked whether they moved within the
state of Georgia in the past 36 months, and whether they left their homes during the summer to
find qualifying work.

Pursuant to 34 C.F.R. § 200.81(d), “Migratory child means a child who is, or whose parent,
spouse, or guardian is, a migratory agricultural worker, including a migratory dairy worker, or a
migratory fisher, and who, in the preceding 36 months, in order to obtain, or accompany such


2
 We obtained this information from GA DOE’s investigative sampling plan. The information on the sampling plan
came from the COEStar System, which maintains information relating to the families enrolled in Georgia’s MEP.
Final Report
ED-OIG/A04F0011                                                                Page 5 of 21
parent, spouse, guardian in order to obtain, temporary or seasonal employment in agricultural or
fishing work-- (1) Has moved from one school district to another…”

The interviewers should have asked questions relating to the requirements for MEP eligibility.
Specifically, the interview should have included questions about all of the families’ moves for
the past 36 months, and moves across state lines. We also found that, for some interviews, the
interviewers did not ask the families when they moved, from what location, to what location, and
for what activity. GA DOE officials stated that they believe the questions for the investigation
were sufficient to determine eligibility; and corrective actions implemented as a result of its re-
investigation should protect the integrity of future recruiting practices.

Insufficient and/or Inadequate Notes Documenting Interviews
In a May 2005 letter to OME, GA DOE reported the results of its re-investigation. The letter
stated that the number of children in the families interviewed or had moved totaled 240 children,
and that GA DOE determined 54 of the children to be ineligible for the MEP.

Through our analysis of GA DOE’s re-investigation documentation, we learned that GA DOE
interviewed 50 migrant families (which includes 101 children), and found 25 families (47
children) to be eligible for the MEP and 25 families (54 children) to be ineligible. However,
during our review of the migrant family interview notes, we found that the interviews did not
always contain enough information to support GA DOE’s conclusions on eligibility.
Specifically, we could not determine whether 5 families (which include 11 children) out of the
25 that GA DOE determined to be eligible, were actually eligible. We also could not determine
whether 2 families (which include 3 children) out of the 25 that GA DOE determined to be
ineligible, were actually ineligible. For these seven families it was not clear from the interview
notes, the location where the families moved to or from, nor was it clear whether the work they
sought or obtained was a qualifying activity.

Inadequate Information About Whether Fraud was a Factor in Discrepancies
In its report to OME, GA DOE concluded that fraud was not a factor in the inconsistencies in
reporting student eligibility. However, we found no documentation to indicate that migrant
families were asked questions that would enable GA DOE to obtain evidence of fraud in the
inconsistent reports of eligibility. For example, GA DOE did not document whether the families
interviewed were asked if they--
•   Had met with the recruiters who recruited them.
•   Had known their children were part of the MEP.

•   Were aware of the requirements to participate in the MEP.
•   Had known their children were found to be migrant and receiving MEP services even though
    they knew they were not eligible.

Although GA DOE stated that it also conducted interviews with recruiters and other Two Rivers
MEA staff in order to determine whether fraud was a factor in the recruitment of ineligible
students, it did not document the interviews.
Final Report
ED-OIG/A04F0011                                                                             Page 6 of 21


Inaccuracies in GA DOE’s Report to OME
OME required GA DOE to prepare a report documenting the results of its re-investigation of
Two Rivers MEA’s student eligibility in the MEP. GA DOE’s letter, dated January 14, 2005,
reporting the results of the Two Rivers investigation contained inaccurate and unsupported
statements. Specifically, GA DOE over reported the number of families interviewed and
reported that 48 additional families had moved and could not be located for interview. As a
result of the inaccurate information, OME could not determine the full magnitude of the
discrepancies in Georgia’s reports of MEP student eligibility.

GA DOE reported to OME that it interviewed 174 migrant families. However, GA DOE only
had documentation to support that it attempted to locate 164 migrant families; and only 50 of
those 164 families were actually located and interviewed. Officials at GA DOE explained that it
attempted to locate and interview the remaining 124 families (174 families reported as
interviewed less the 50 families interviewed), but 1) someone at the addresses informed them
that the families did not live there anymore, 2) the family was not at home, or 3) someone in the
neighborhood told them that the address did not exist. In addition, GA DOE could not provide
evidence supporting any attempt to locate 10 of the 174 families. GA DOE classified and
reported to OME that all 124 families were interviewed based on its attempt to locate and
interview. GA DOE officials stated that they decided not to base the reporting of the re-
investigation results solely on face-to-face interviews.

Aside from the 174 families discussed above, GA DOE reported that it determined that an
additional 48 families had moved and could not be interviewed. GA DOE did not have any
documentation to support its attempt to locate and interview these families, which it reported to
OME as having moved. Therefore, GA DOE could not provide us with any information to verify
that the 48 families had moved.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Elementary and Secondary Education require
GA DOE to--

1.1   Identify all MEP students served by Two Rivers MEA whose eligibility was not
      determined in the investigation and determine their eligibility status through the re-sign
      process.3

1.2   Determine if the GA DOE needs to refund any MEP funds as a result of the ineligible
      students identified. If so, GA DOE should make the appropriate refunds for the newly
      identified ineligible students, as well as those ineligible students identified during the Two
      Rivers investigation and the students without adequate documentation to support GA
      DOE’s conclusion of eligibility.




3
  Once a year, MEP recruiters revisit MEP families to complete a form, or re-sign, that will determine whether the
families are still eligible to participate in the program.
Final Report
ED-OIG/A04F0011                                                              Page 7 of 21
1.3   Report to OME the correct total number of migrant children in the families interviewed
      during the Two Rivers re-investigation and the total number of those children found to be
      ineligible.

1.4 Annually check on continued residence and eligibility of migrant children.

In addition, we recommend that the Assistant Secretary for Elementary and Secondary Education

1.5   Determine whether any sanctions should be brought against GA DOE for inaccurate and
      unsupported statements made in its report to OME.


Finding No. 2 – Administration and Oversight of GA DOE’s MEP Needs
                Improvement
GA DOE did not adequately administer the MEP to ensure that the MEP was properly
implemented. We found that GA DOE’s sub-grantees were not monitored, and Two Rivers
MEA’s MEP funds were not audited for fiscal years 2002 and 2003.

GA DOE’s MEP Sub-grantees Not Monitored
During our review of GA DOE’s administration of the MEP, we found that – as already noted in
OME’s most recent monitoring report – the GA DOE could not provide evidence of monitoring
activities it performed on its MEP sub-grantees prior to 2005. Without having adequately
monitored the sub-grantees, GA DOE could not be assured that the sub-grantees were complying
with applicable federal requirements.

Pursuant to 34 C.F.R. § 80.40(a), “Grantees are responsible for managing the day-to-day
operations of grant and sub-grant supported activities. Grantees must monitor grant and sub-
grant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved.”

According to the GA DOE’s Title I Director, the former MEP Coordinator was planning to make
on-site monitoring/oversight visits in the Spring of 2004. However, the GA DOE presented no
evidence that the former MEP Coordinator performed any monitoring activities in the Spring
2004. The Director of the GA DOE’s Innovative Academic Programs said that in of 2005, she
visited Georgia’s MEAs and interviewed and informed staff about the upcoming re-organization
of the MEP.

According to the Title I Director, the Director of Innovative Academic Programs, and GA DOE’s
Superintendent, GA DOE has hired new staff to coordinate and monitor Georgia’s MEP to
address its monitoring problems and MEP ineligibility defect rate. GA DOE has brought all
MEP program and fiscal responsibility back to the State Education Agency (SEA) and is in the
process of developing a monitoring plan.
Final Report
ED-OIG/A04F0011                                                                       Page 8 of 21
Two Rivers MEA MEP Funds Not Audited
Marion County Board of Education failed to have its MEP funds audited for fiscal years 2002
and 2003 as required by federal audit requirements.4 Consequently, both GA DOE and Marion
County Board of Education are not in compliance with federal audit requirements for those two
years. Without an audit, GA DOE could not determine whether the funds were spent in
accordance with applicable laws for those fiscal years.

Pursuant to 34 C.F.R. § 80.26, “(a) Grantees and sub-grantees are responsible for obtaining
audits in accordance with the Single Audit Act… (b) State or local governments…shall (1)
Determine whether State or local sub-grantees have met the audit requirements of the Act…(2)
Determine whether the sub-grantee spent Federal assistance funds provided in accordance with
applicable laws and regulations…” Single Audit requirements are contained in OMB Circular A-
133.

Marion County Board of Education was the fiscal agent for the Two Rivers MEA, and as such
was responsible for receiving and expending MEP funds on behalf of Two Rivers MEA as an
MEP sub-grantee of GA DOE. However, it did not have MEP funds audited under the Single
Audit Act (A-133) for fiscal years 2002 and 2003. Marion County Board of Education is an
MEP sub-grantee of GA DOE. The Board acts as the fiscal agent for Two Rivers MEA. For
fiscal years 2002 and 2003, Marion County Board of Education received and expended (on
behalf of Two Rivers MEA) $1,571,767 and $1,784,517 respectively, in MEP funds. However,
Marion County Board of Education did not include these MEP funds on its Schedule of Federal
Expenditures for the FY 2002 and FY 2003 A-133 audits, and, therefore, the funds were not
audited. The Georgia Department of Audits caught this error and corrected it for the FY 2004 A-
133 audit.

According to the GA Department of Audits - Supervisor for Federal Audit Requirements, there
was a misunderstanding of fiscal responsibility on behalf of Marion County Board of Education.
The Marion County Board of Education did not know it had to report the expenditure of the
MEP funds and have the MEP funds audited, even though it received and expended the funds on
behalf of Two Rivers MEA.

RECOMMENDATIONS

We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education require GA DOE to--

2.1 Design and implement a formal monitoring process to ensure compliance with program
    requirements and A-133 audit requirements and submit the process and findings to OME.



4
 2001-02 was the first year that Marion County received MEP funds on behalf of Two Rivers. The county was
audited, but the Marion County Board of Education did not include MEP funds on the Schedule of Federal
Expenditures. Due to the amount of the funds received, Marion County’s MEP would have been considered a major
program and would have been required to be audited. As for 2002-03, although Marion County’s MEP funds would
have been considered a major program, we do not know if the funds would have been audited because the
determination would have been based on whether there were any findings from the 2001-02 audit.
Final Report
ED-OIG/A04F0011                                                                Page 9 of 21
2.2 As part of its monitoring, review single audit reports for its sub-grantees to ensure that
    funds required to be audited are actually being audited.



              OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of our audit were to (1) review and determine the adequacy of GA DOE’s re-
investigation of the eligibility of migrant students served by the Two Rivers MEA; (2) determine
whether MEP funds allocated to Marion County Board of Education for Two Rivers MEA were
expended appropriately; and (3) determine the extent of GA DOE’s monitoring of its MEP sub-
grantees.

The audit period for our review of GA DOE’s re-investigation of Two Rivers MEA’s student
eligibility was from September 1, 2003, through May 30, 2005 – the program year reinvestigated
(September 1, 2003 through August 30, 2004) and the re-investigation (May 2004 through May
2005). The audit period for our review of Two Rivers MEA’s MEP expenditures was for fiscal
year 2002-2003 (July 1, 2002 through June 30, 2003). The audit period for our review of GA
DOE’s monitoring of its MEP sub-grantees was for program years 2003-2004 through the
current program year 2004-2005 (September 1, 2003 through August 30, 2005).

To determine the adequacy of GA DOE’s reinvestigation of Two Rivers we interviewed Marion
County Board of Education, Two Rivers MEA, and GA DOE personnel; reviewed the interview
notes and supporting documentation of the 50 migrant families interviewed for purposes of the
Two Rivers re-investigation; and reviewed reports that GA DOE sent to the Office of Migrant
Education (OME), explaining the results of the re-investigation of Two Rivers MEA

To determine whether MEP funds allocated to Marion County Board of Education (BOE) for
Two Rivers MEA were expended appropriately, we
   !   Interviewed Marion County BOE and Two Rivers MEA personnel to verify the MEP
       expenditure process.
   !   Reviewed Two Rivers MEA’s written policies and procedures relating to the MEP
       expenditure process.
   !   Reviewed accounting records for fiscal year 2002-2003 to determine how much MEP
       funds were received for Two Rivers, how much was expended, and the whereabouts of
       any leftover funds.
   !   Sampled MEP expenditures for fiscal year 2002-2003. In our sampling process we
       excluded payroll expenses, journal entries, and MEP expenditures under $100. Of the
       remaining 490 MEP expenditures, we randomly selected a sample of 50 expenditures to
       review.
   !   Sampled MEP inventory for fiscal year 2002-2003. In our sampling process we obtained
       a list of 26 inventory items located at Two Rivers MEA, purchased with MEP funds, and
       randomly selected 13 of the items to locate.
   !   Performed a payroll review for fiscal year 2004-05 for Two Rivers MEA staff and MEP
       recruiters/paraprofessionals serving in the Two Rivers MEA region. We randomly
       selected 11 out of 42 MEP employees associated with Two Rivers MEA, then randomly
Final Report
ED-OIG/A04F0011                                                            Page 10 of 21
       selected 3 of 12 months pertaining to the 2004-05 fiscal year (November 2004, March
       2005, April 2005), and reviewed payroll for the 11 MEP employees for the three selected
       months.

To determine the extent of GA DOE’s monitoring of its MEP sub-grantees, we interviewed GA
DOE personnel and the former MEP Coordinator, and reviewed GA DOE’s written policies and
procedures relating to the MEP and monitoring.

During the audit, we relied on Certificates of Eligibility (COEs) generated from the COEStar
System, which houses information relating to the migrant families enrolled in the MEP for the
state of Georgia. To ensure that information in the COEStar System accurately reflects
information from data entry forms (source of COEStar System data), we randomly sampled
COEs in COEStar and compared the information to source documentation (data entry forms).
Based on the results of our sample we determined that the information on the COEs from
COEStar were sufficiently reliable to use in meeting our audit objective. In addition, we were
given a list of students whose student school history information was removed from COEStar
due to MEP eligibility issues according to GA DOE officials. We selected a random sample of
these students and determined whether their student school history information was actually
removed from COEStar. Our review assured us that that for those students that GA DOE
identified as ineligible for the MEP, their eligibility status was updated in COEStar.

We performed on-site audit work in July 2005 at GA DOE in Atlanta, GA, Two Rivers MEA in
Buena Vista, GA, and Marion County Board of Education also located in Buena Vista, GA. An
exit conference was held with GA DOE officials on October 14, 2005. The audit was performed
in accordance with generally accepted government auditing standards appropriate to the scope of
the review described above.



                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                             Henry Johnson
                             Assistant Secretary
                             Office of Elementary and Secondary Education
                             U.S. Department of Education
                             600 Independence Ave., SW
                             Washington, D.C. 20202-6100
Final Report
ED-OIG/A04F0011                                                              Page 11 of 21


It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,

                                             /s/
                                             Denise M. Wempe
                                             Regional Inspector General for Audit
Attachment
Final Report
ED-OIG/A04F0011                                                            Page 12 of 21




December 6, 2005
                                                                  Control Number
                                                                  ED-OIG/A04-F0011


Ms. Denise M. Wempe
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
61 Forsyth Street, Room 18T71
Atlanta, Georgia 30303

Dear Ms. Wempe:

Attached is the Georgia Department of Education’s response to the draft audit report dated
November 9, 2005, Audit of the Georgia Department of Education’s Migrant Education Program
(MEP). Audit coverage included MEP operations and the Two Rivers re-investigation from
September 1, 2003 through August 30, 2005.

If you have questions regarding our response, please contact Mr. Craig Geers at
cgeers@doe.k12.ga.us.

Yours truly,



Kathy Cox

KC/cg
Attachment
Cc:   Ida H. Love, Ph.D., Deputy Superintendent
      Ms. Elizabeth Webb, Director, Innovative Academic Programs
      Mr. Craig Geers, Program Specialist, Migrant Education Program
      Jeff Gagne, Ph.D., Federal Policy Analyst
Final Report
ED-OIG/A04F0011                                                              Page 13 of 21


                       Office of Inspector General Draft Audit Report
                         of the Georgia Department of Education’s
                             Migrant Education Program (MEP)

                            Control Number ED-OIG/A04-F0011

           State Education Agency Response to Findings and Recommendations

The Georgia Department of Education (GA DOE) submits the following written comments in
response to the findings and recommendations as set forth in the Office of Inspector General’s
(OIG) Draft Audit of the Georgia Department of Education’s Migrant Education Program.

Finding No. 1 – GA DOE’s Re-Investigation of Two Rivers MEA was Inadequate and its
                Report was Inaccurate

OIG RECOMMENDATIONS

1.1    Identify all MEP students served by Two Rivers MEA that were not included in the
       investigation, determine their eligibility status through the re-sign process, and determine
       if there should be any refunds to the Department of Education related to the ineligible
       students identified. If so, GA DOE should make the appropriate refunds for the newly
       identified ineligible students, as well as those ineligible students identified during the
       Two Rivers investigation and the 11 students without adequate documentation to support
       GA DOE’s conclusion of eligibility.

       State Response:
       We concur with Finding No. 1 and recommendation 1.1. Corrective action was taken to
       determine the eligibility status of all MEP students served by Two Rivers MEA who were
       not already removed from program eligibility as a result of the re-interviews conducted
       between May 2004 and May 2005. The state plans to comply with the Office of Migrant
       Education’s (OME) future determinations regarding the appropriate reimbursement of
       funds associated with the misidentification of students for program eligibility as
       determined through the national Re-Interview Initiative.
               (a) Beginning on August 10, 2005, the Two Rivers regional office staff and
                   trained MEP funded local system recruiters began to re-interview every MEP
                   eligible family/student not included in either (a.) the initial Two Rivers
                   investigation or (b.) the state’s effort to comply with the OME’s Re-Interview
                   Initiative request. The recent re-interviews were conducted in association with
                   the program’s annual re-sign process and included modified eligibility re-
                   interview questions similar to those recommended by OME officials in their
                   August, 2004 guidance (attachment 1). The task was completed for the entire
                   Two Rivers region in early November and all newly-identified ineligible
                   students in the region have been removed from MEP eligibility rosters
                   (attachment 2). The Georgia MEP is currently working with the local systems
                   in the Two Rivers service region to remove the eligibility coding and
                   discontinue MEP funded services for all misidentified students (attachment 3).
Final Report
ED-OIG/A04F0011                                                            Page 14 of 21
                 Parents and guardians of misidentified students are being notified in writing
                 through correspondence generated at the Two Rivers MEA office (attachment
                 4).

             (b) The GA DOE complied with the OME’s national request to conduct a
                 statewide re-interview initiative to determine the accuracy of eligibility
                 determinations of a random sample of 378 students from its 2003-2004 child
                 count. The preliminary outcome of that initiative was submitted to OME
                 officials in June, 2005, with a request made to re-evaluate six cases in July,
                 2005. The outcome of the six re-evaluations was determined in September,
                 2005, and formal notification of the results is currently being drafted by GA
                 DOE program administrators along with the results of the state’s full re-
                 sign/re-interview project. The state has committed to submitting eligible child
                 count information to the OME by March 1, 2006. All OME requests for
                 reimbursement of unearned allocated funds will be honored by GA DOE
                 officials pending future directives from the OME.

1.2   Report to OME the correct number of migrant families interviewed during the re-
      investigation.

      State Response:
      We concur with recommendation 1.2, and the GA DOE can report that it included in its
      investigation only families whom it could verify actually lived or had lived at the address
      listed on the Certificate of Eligibility. The GA DOE concurs that it did not base the count
      solely on face-to-face re-interviews, nor did it follow the procedures outlined in the
      notice dated July 2004 to SEAs from the OME regarding the national re-interviewing
      initiative. That process did not allow the SEA to count any children or self-eligible youth
      from the random sample who could not be located during the re-interview process. To do
      so meant that families or self-eligible youth could not be counted simply because they
      were no longer in residence to re-interview.

      Of the families re-interviewed during the investigation, 54 children were identified as
      ineligible and were removed from the MEP eligible roster in the spring of 2005. The
      GA DOE has re-interviewed every remaining family on the Two Rivers 2004-2005
      eligibility roster and identified all remaining ineligible students through the re-sign
      period, August 2005 through November 2005. Of the families interviewed during the re-
      sign period, 557 children were removed from the MEP eligible roster in the Two Rivers
      MEA.

1.3   Annually check on continued residence and eligibility of migrant children.

      State Response:
      We concur with recommendation 1.3.
             (a) The GA DOE, as an integral component of its MEP accountability and
                 reporting process, has annually conducted re-signs to check on eligible
                 students’ continued residency. During the re-sign process, which occurs at the
                 beginning of each new school year, all eligible student information and
Final Report
ED-OIG/A04F0011                                                             Page 15 of 21
                 continued residency is verified through parent/guardian contact and is then
                 updated in the MEP data system. As previously noted, this year’s re-sign
                 process also included a full, formal re-interview with each parent or guardian
                 to determine the accuracy of each student’s current eligibility determination.
                 The re-sign process, verifying all eligible student information and continued
                 residency, will continue to be a part of the GA DOE’s accountability and
                 reporting efforts.
             (b) All future eligibility monitoring and verification requirements will be ongoing
                 and not limited to a single annual accountability check as was done from
                 August to November of this year. The GA DOE has prepared, and has in
                 place for implementation, a monthly random sample re-interview process of
                 newly-identified students to verify the accuracy of eligibility determinations
                 made within the proceeding four weeks in each of the four service regions.
                 Because of the magnitude and scale of the recently completed re-interview
                 process, the first of these random samples was rescheduled from September to
                 January. January’s random sample will be pulled in each region from all
                 newly-identified students enrolled in the MEP from August 1 through
                 December 31, 2005. Each random sample thereafter will pull only from the
                 previous month’s newly-identified and enrolled students. Additionally, the
                 state will conduct a full, statewide random sample of eligibility
                 determinations, similar to the recently completed OME re-interview initiative,
                 to be conducted every three years. The next such statewide review will occur
                 during the 2007-2008 school year.
             (c) The errors leading to the misidentification of students for MEP eligibility in
                 Georgia were the result of a lack of quality control processes, including a lack
                 of meaningful monitoring and uniform recruiter training practices. The state
                 has taken significant steps to ensure that the identified areas of non-
                 compliance that led to the misidentification of students are corrected and
                 avoided in all future identification and recruitment (ID & R) efforts.
                 Significant improvements were realized with the return of direct control of the
                 program to GA DOE officials on September 1, 2005. A new GA DOE
                 recruiter training and certification program is under way that reflects the
                 eligibility guidelines currently established in the OME’s Draft Non-
                 Regulatory Guidance of October, 2003. Monthly meetings are being run to
                 meet with all full-time GA DOE recruiters to review and ensure adherence to
                 the state’s revised recruiting policies, guidelines, and practices. Difficult and
                 challenging recruitment cases are being shared and discussed at the monthly
                 meetings, and there is a concentrated effort under way to involve all staff in
                 contributing to the quality control process of identification and recruitment.
                 Local system MEP-funded recruiting personnel are also receiving GA DOE
                 developed recruitment training sessions as a key component of their regularly
                 scheduled meetings with regional GA DOE MEP personnel. Full time GA
                 DOE recruiters are delivering these training sessions to ensure the delivery of
                 consistent information and expectations.

1.4   Determine whether any sanctions should be brought against GA DOE for inaccurate and
      unsupported statements made in its report to OME.
Final Report
ED-OIG/A04F0011                                                              Page 16 of 21


      State Response:
      This recommendation is made to the Assistant Secretary for Elementary and Secondary
      Education and is therefore beyond the control of GA DOE officials.


Finding No. 2 – Administration and Oversight of GA DOE’s MEP Needs Improvement

OIG RECOMMENDATIONS

2.1   Design and implement a formal monitoring process to ensure compliance with the
      program requirements.

      State Response:
      We concur with Finding No. 2 and recommendation 2.1. The Georgia Department of
      Education is currently designing a state wide service delivery plan for the implementation
      of its MEP that reflects the significant operational changes brought about by the return of
      direct MEP control to the GA DOE on September 1, 2005. Future year allocations of
      federal Title I, Part C funds will be made by the GA DOE directly to local school systems
      using a soon-to-be developed funding formula that will be a part of the new state wide
      service delivery plan targeted for use beginning in the 2006-2007 school year. Local
      systems will submit an application for approval for the use of allocated funds through the
      GA DOE’s consolidated application process. Remaining program funds used to provide
      services to eligible 3 through 21 year olds not currently enrolled in school will be
      maintained and administered by the GA DOE and its regional MEP support staff.
      A collaborative approach to monitoring the state’s MEP is also being designed for
      implementation in the 2006-2007 school year to ensure compliance with federal MEP
      monitoring requirements.
              (a) The state’s Title I, Part C MEP will be joining Title I, Part A and D, Title V,
                  Part A and Title VI, Part B (where applicable) in monitoring local systems’
                  implementation of federal programs beginning in the 2006-2007 school year.
                  The monitoring of grantees receiving funds from the other federal programs
                  will begin in January, 2006. The Georgia MEP will be adding its monitoring
                  requirements to the established monitoring process over the course of the next
                  six months and will cover all required program monitoring elements contained
                  in the OME’s Draft Non-Regulatory Guidance of October, 2003.

2.2   As part of its monitoring, review single audit reports for its sub-grantees to ensure that
      funds required to be audited are actually being audited.

      State Response:
      We concur with recommendation 2.2. Steps will be taken by GA DOE officials to
      include, as part of the subgrantee monitoring, requirements to ensure that MEP funds are
      included as part of the A-133 audit. The procedures will require GA DOE monitoring
      personnel to obtain from the subgrantees their A-133 audits and to verify that MEP funds
      reported as expended were reflected in the Schedule of Federal Expenditures and were, in
      fact, subject to an audit in accordance with A-133.
Final Report
ED-OIG/A04F0011                                                                                  Page 17 of 21



ATTACHMENT NUMBER 1


Verifying Program Eligibility
        a.   Have you/Has your family, or part of your family, moved during the past three years, even for just a short
             period of time?       # Yes      # No

             Notes (give
        dates):___________________________________________________________________________________________
        __________________________________________

        b.   If yes, Did you move for work or to seek work? In what?(interviewer may need to ask additional questions to
             determine whether the work was temporary or seasonal work in agriculture or fishing)

             Notes (state reason for move and type of
             work):________________________________________________________________________________________
             ___________________________

        c.   Which family members moved?
             _____________________________________________________________________________________________
             ____________________________________

        d.   Did/Does this work play an important role in sustaining your family, i.e. food, rent, power, health care,
             clothing?     # Yes # No

Parent/Guardian/Self Eligible Youth Signature:
____________________________________________________________________________                    Date:
Final Report
ED-OIG/A04F0011                                                         Page 18 of 21


ATTACHMENT NUMBER 2



    DISTRICT      P0-P2 (Reg. Year) P3-22 (Reg. Year) P3-22 (Summer) TOTAL
Bibb                               1                  1                   2
Bleckley                                              1                   1
Butts                                                 1                   1
Crisp                                                 5                   5
Decatur                            2                 33                  36
Dooly                              3                 45                  51
Dougherty                                             8                   8
Grady                              5                 88           39    107
Harris                                                2                   2
Houston                            3                 43                  46
Lamar                                                 1                   1
Marion                             1                 17                  19
Mitchell                           1                 12                  13
Muscogee                                             70                  70
Peach                              9               138             4    154
Pulaski                                               4                   4
Schley                             1                  9                  11
Sumter                                               10                  11
Taylor                             1                                      1
Thomaston-Upson                                       3                   3
Troup                              1                  1                   2
Webster                                               7                   7
Worth                                                 2                   2
                                 28                501            43    557
Note: No MEP funding was earned for the 28 P0-P2 children
Final Report
ED-OIG/A04F0011   Page 19 of 21
Final Report
ED-OIG/A04F0011                                                                                                                                        Page 20 of 21


ATTACHMENT NUMBER 3 CONTINUED

~v1t: m o:: Dislrid
MenlO       Dislm:1 Lc           ~'l ig
                    L("\\·c<.:ll iv  igralll
                                        ra nl E ducation P l"o~ r a
                                                ducatiou Progr    [lm
                                                                    m Contacts.
                                                                       (\nt:lcIs
Pag..:: Two
Pagf.!
October 5, 2005
OClobcr


       2. A i'v l'vII EP
                      I ~ P g";llerall:;d       Cllrr<'lIl Hllml/m
                            gcncrn tl::d CII/,/'<'1I1             f:llmllmelll             ?(por! of :-tudents
                                                                                    el// I/?eporl         student,; in your dislrlCI      district vt:nGcd
                                                                                                                                                      vcnli cd 10  to be elig ible 10    to
          IlT
            "eel
               Ct''lIYCye tIlhl ('~' V  IFP'' s~ ,uppkm('nirl!
                                     \ 'IFP        uppkm(' nial service          service,'> thi$
                                                                                              this ":)("ch
                                                                                                         h oo
                                                                                                           oo!l )c    yeara r.. J\ longs id e(: eac
                                                                                                                                 I\kmg.,i         eaehh stu
                                                                                                                                                          studen
                                                                                                                                                              dent' t' s name. )you   ou
           willll lim
           wi         lindl his
                              his//lH.: herr F
                                             FTrE I.:. number if avail                          tho..: COE:.tar
                                                                              (l \'uililabk, thl:      COE:,wr ID         [I) number. noB.     DOB. grad
                                                                                                                                                       grade, e, and CU        cm end
                                                                                                                                                                             lTent
                                                                                                                                                                         cU lT
           u fdi~ibil
              f d i!::ibililil yY ( EOE) FC) E) (\tl;Jl~.         111\::.';1;: ;-,tutl~nh
                                                       ;111::. '' nl\:::\\::    :.t udCJl t~ :IIro..: dig.ibk 10
                                                                                               Ir,,; eligible          to be St:f\    t:d wil h MEr
                                                                                                                                st;C\·t;d          MEP f unded Sl1      sllpp  leme
                                                                                                                                                                            pple  lm:. nt~
                                                                                                                                                                                        nt~l1 l1
          services
             en·jccs un      until  til they Te      ach EOE
                                                 Tl'ach       EOr: or     o r make anothe  anotherr qualifying move.           mov(': . Th        d istdr ici
                                                                                                                                            T hee dist     ct g e(,llcnlfcd
                                                                                                                                                                   nc r a t cd
          1M1Jigran
               i:':Yl/l/{t S Itu   t/ul/ en'
                                          /lt Cur
                                               Cu rrr en 't Enrol/lII
                                                                  Enrol/m i'c",           Repor" rrC(
                                                                                      lll Report,        C(Jt uce s l cd t1o0 lbw(' S   s lIu hm
                                                                                                                                              hmiitt
                                                                                                                                                  tted
                                                                                                                                                     ed in item I, m llust     st
           1ll,Ik h t h e(~ ):l
           m,lkh                     M lEP   's C
                                           P':,   C Jlrre
                                                      llrre llT     EII /'fJ llment R eport
                                                              llf Ellm/lmcllt                     por t c..x
                                                                                                         C,.'\ lIl·lh      pr ior 10 hein
                                                                                                               lI (' l h · prior          bein ge. sen
                                                                                                                                                   se ntt t o the
                                                                                                                                                               rhe DOE))OE !\ligr:U1t
                                                                                                                                                                               !\Ii:;:.r a nt
            Pro;::ralll
              rogra m Sta le             te na
                                             Data ta Coor
                                                        Coordd inato  inatorr...

For Ihe :;l'af  staff alt the Depa             n mcnt's
                                        epnrullen       l's regio~gil) nIl:l[ ~vl igrant edu
                                                                          al :-"Iigrant      e d ucc a tiOIl
                                                                                                           ion Agency (i'db\) (MEA) 0       o lliccs,
                                                                                                                                                li ccs. thc
                                                                                                                                                          he I1C;-.
                                                                                                                                                                nc). 1t im pQ  o rtant
                                                                                                                                                                                 rt am
 t;15k w
 t.'lsk  w1l1 ill be to cSla        bhshll'1.1 fClster
                               cs tabhs                     of the eligible
                                                  rostcrofthe             li gible st    udennt s in yo
                                                                                       stude                   ur d isl ri
                                                                                                            your          rict
                                                                                                                            ct who a<I rce dcs   es ignmcd
                                                                                                                                                     ig.n<l tcd as 11<I\
                                                                                                                                                                       having
                                                                                                                                                                            'il1£
" PrPriioritity y fo r Sen Sen ' ices
                                   ices"" (PFS)
                                              PFS).. Thi Thiss cdke·sig.nation
                                                                        sig.nation ij :;s ;l;J required component ofl             of thc  he fede ral sta  stattute gove  ovemi minng
lIhe usc of M lj:-,P          P funds . Secti Se~\ i o n!
                                                        n I 304(
                                                              304(d)           Ill..: sStatU\~
                                                                       d) of Ih.:       tatute g i\ l\ ·' es
                                                                                                          ~S priority
                                                                                                              priority for !'crv           C$ 10 migrant
                                                                                                                                serv iCc ..:s        mig.rant children:
                                                                                                                                                                   children : (1 )
w ho are failing, r'< liling. o r Ul m('  ost
                                            st at ri
                                                   risk
                                                     sk o (I ft" failing,
                                                                 ra il ing, to IIlcc-tl
                                                                                  lIleet the State's ciw        c1w llltenging
                                                                                                                        cnging State ;\C       \C.:Jd
                                                                                                                                                  adernic
                                                                                                                                                      ern ic eon
                                                                                                                                                               conttcncntt
s wndards
   tnndards and dwllcliging   challen ging State   Slate stude
                                                             studennt academic
                                                                           aeadt:mic achi         evcment
                                                                                           llc hicvc       m\.."nt sta
                                                                                                                   slf\ InKirlrds
                                                                                                                          dards.. (/Ildand (2) whosewh o~c e d uca  ucatt ion has
bl~cn
bt   ~e n inkrr
           nterruup ted durin     duringg the re    reglgullla r sc~ch hool y ear. Th     Thee (ico         gia MFP ma
                                                                                                 ( ie()rrgi:!              m ClY        rve children wh o
                                                                                                                                y s e rvc                         <' d
                                                                                                                                                                     d(i) n()\ 111eel
                                                                                                                                                                        ) Jl()\  meet
lht.:
t he "pri prio  ori
                  rity t)' fifor s~!"\· ii ces"
                              )r s(:rv         '· cr
                                                  criitteriiaa "0<;0 long     as it :;e
                                                                      lon g. 11S      "cnT
                                                                                         rn'<;'> c hi
                                                                                                   hildr("n
                                                                                                         ldren whl) ho mcet the c(: r iter   iteriia firirst.
                                                                                                                                                          st. T he ME l\.      A :-ta
                                                                                                                                                                                   sta ff
 \\ ill b!.'(;' gathe
                  alherring. data [100 deCIter      l!rminc
                                                        mi ne PFS through the liuse              se o f th e MEP  MEP's    ' s Studen
                                                                                                                               Studentt Needs Ass        As~es~metll
                                                                                                                                                                essment Fonn   Fa nn
(S    NA F). rt ask tha
(SNAF).                         thatt you join them ill sle~ t:cjing        n g Ibn
                                                                                 tl:at the     S:-.1AF
                                                                                          ht: SNA         V forms
                                                                                                             furms fur  for your eligible           ~tude n
                                                                                                                                       el igible slUdr..:    Jlts
                                                                                                                                                               ts arc
                                                                                                                                                                   are completed
a ndlld retu
         retu!1lcd
                 rned quickly. uic kly. No serv    erviicecess will he provi drJed        ed foforr stu
                                                                                                    studdent  entss wilithhoUl ut 1111 cur
                                                                                                                                       turrrellt
                                                                                                                                             t:nt ve\lear
                                                                                                                                                       ar SNA
                                                                                                                                                            S:--.JAFF olll
                                                                                                                                                                        o n iii le wit
                                                                                                                                                                                    withh
         jvt[r
l!lr..:£ M
lh          fr,·

'Tntan!'
   han~ you very much  milch fo r y~ oollr
                                        ur lIII nder<;
                                                ndcrsta l1rling
                                                         uniug a nd cl)flper
                                                                      cooperalion          :1.<; C
                                                                                   al ioll fl.<:  \'\..'11
                                                                                                     icorreia'"       ~\'IFP
                                                                                                           e ift ' <; M    FP i ..." hn)
                                                                                                                                       m llII g
                                                                                                                                              ~', h
                                                                                                                                                  htr hilCk
                                                                                                                                                      haICk lnlO
                                                                                                                                                            into
compliance wil\! with federal
                        fede ral rcgutllions
                                   regulations.. We lwyc    h:lye ma  de a sig.nili(:
                                                                   rnnde         ignilic iJJl!
                                                                                           <l1l\ step forwa tixwilrrtl   rJ by Inking
                                                                                                                                 taking the time 10         to
   nsu re that only eligible stu
ensu                                  dent s arc served f~o
                                    lud(;1lIs                      m this point f(lI"W<lrd
                                                               j~OJ1)                  t<)!lvard III     in the P rogram.
                                                                                                                      rogram . Th     Throu rough   gholH
                                                                                                                                                       out t he
cou
courrse (lft
          of the
               izc y(:ar,
                   yt:Hr, the
                           thc MEMEA A coord
                                        coordina  inato
                                                      torr serving your district and Ill            IusS o r hcr
                                                                                                              her Sh  stnl ifTr will be wo    worki  rkinng dosdy
                                                                                                                                                            closely
 wi th you an
 with       fi ndd yo
                   your
                      ur :vI
                          ;-vl£E P funded
                                   fuuded stafl't
                                               stalfto   fUrlhcrr mee t f'reC Jl1:1ining
                                                       o furthe               Jl1 aining Program rogram com    compp llia       nce re
                                                                                                                            iance     rcg.ulntions.
                                                                                                                                        g.ukttions.

Th e regi{l eginna      \1 FA 0olTIcc
                   nalJ MEA             s. mlw
                                  fTi cC5. \l(\W dire ct Departmen
                                                 di rect    Cp:.lnIllCn tl of hlucati(ln    ciltiti es, ~
                                                                                  luc:ltion eJlllties,       n~ s!t
                                                                                                                  lIlIlliloc
                                                                                                                          ocated
                                                                                                                             alcd 1nIn Ih
                                                                                                                                       th e same
                                                                                                                                            sa me
 fa cil itities
 facil       es and
                  a nd co
                        eOll!i
                           ntinnuc
                                 ue 10
                                     io havc
                                         ave t ht
                                                he, S<lme
                                                    same coCOll1act
                                                              nta(:t numocrs
                                                                          umbe rs.. 1 hav
                                                                                       havee :ls
                                                                                             asked      all new :\:v~l EA coordin:llors
                                                                                                 ked aHne\\'                    oordjnmors 1I ()0
c(.; ol)Ot<lct
        nt act the district
                       istrict.s and
                                 alld schools withillth
                                                 within their     Etssign
                                                             ei r ass igl1ecd ::;c]"vicc            i ll t rroJuct!"
                                                                                service nrc.1S 10 Ult        oduc~ tI hcmse!ws
                                                                                                                        hcmse!y~s and  <lnd to make
 themsclves aV<lda
 themselves            \'ailabblc to ans\vt'r
                                       answer questions and sh     ~ h are
                                                                       :l re u pcoming
                                                                               pcomi ng inn
                                                                                          init iatives
                                                                                               ialivcs aime   imedd at improV
                                                                                                                          improviing ng the
 identifi
 idel11 ifieatlon,
               cll tion, rcemitll1t::m,
                          Cl:mi!ll1enl. and aca acad dem iic ach
                                                             achk\     em~~ lI t of your eligible
                                                                  icv(:mcnt               ehgib1c-migrant
                                                                                                       migrililt S   sIU
                                                                                                                       tudents
                                                                                                                          <1C1lIS..
Final Report
ED-OIG/A04F0011                                                             Page 21 of 21


ATTACHMENT NUMBER 4



                                   (000) 000-0000 Fax (000) 000-0000

                                            January 12, 2006




[Click here and type recipient’s name]
[Click here and type recipient’s address]
[Click here and type recipient’s address]

Dear :

A representative from the Georgia Migrant Education Program recently visited you and/or your
family to update and confirm the Migrant Education Program eligibility information currently on
file for you and/or your child(ren) in the YOUR Migrant Education Agency office. A photocopy
of the form that was completed and signed during the visit is enclosed. Please keep it for your
records.

Based on answers to the questions about your/your family’s work and travel, it was determined
that you and/or your child(ren) are no longer eligible for services in the Migrant Education
Program. You/your child(ren) are no longer eligible because:
    # there has been no move or travel in the past three years for the primary purpose of
        obtaining/seeking seasonal/temporary work in agriculture/fishing.
    # most recent documented move or travel was not for the primary purpose of
        seeking/obtaining seasonal/temporary work in agriculture/fishing.
    # Other: _________________________________________________________________
        _______________________________________________________________________

Thank you for allowing the representative the opportunity to visit you and/or your family and to
review your Migrant Education Program eligibility information. If you have questions or
concerns, please contact the YOUR Migrant Education Agency at 1-800-000-0000.

Sincerely,


YOUR NAME
Coordinator, YOUR Migrant Education Agency

Enclosure
cc: Local system school
